Z>
I

COCKLE

Brief E-Mail Address:
Leg al pieas contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214 Estos
1-800-225-6964. Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-511

FACEBOOK, INC., PETITIONER.

v.
NOAH DUGUID, INDIVIDUALLY AND ON BEHALF OF
HIMSELF AND ALL OTHERS SIMILARLY SITUATED,
AND UNITED STATES OF AMERICA

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 11th day of September, 2020, send
out from Omaha, NE 3 package(s) containing 3 copies of the BRIEF FOR RETAIL LITIGATION CENTER, INC.,
NATIONAL RETAIL FEDERATION, AND RESTAURANT LAW CENTER AS AMICI CURIAE SUPPORTING
PETITIONER in the above entitled case. All parties required to be served have been served by third-party commercial carrier
for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
DEBORAH R. WHITE JOSEPH R. PALMORE
KATHLEEN F. MCGUIGAN Counsel of Record
RETAIL LITIGATION CENTER, INC. SAMUEL B. GOLDSTEIN
99M St. SE, Suite 700 MORRISON & FOERSTER LLP
Washington, DC 20003 2000 Pennsylvania Ave. NW
Counsel for Retail Litigation Washington, DC 20006
Center, Inc. (202) 887-6940

JPalmore@mofo.com
STEPHANIE A. MARTZ

NATIONAL RETAIL FEDERATION MEREDITH C. SLAWE

1101 New York Ave. NW, MICHAEL W. MCTIGUE JR.
Suite 1200 COZEN O’CONNOR

Washington, DC 20005 One Liberty PI.

Counsel for National Retail 1650 Market St.. Suite 2800
Federation Philadelphia, PA 19103

ANGELO I. AMADOR Counsel for Amici Curiae

RESTAURANT LAW CENTER

2055 L St. NW, Suite 700

Washington, DC 20036

Counsel for Restaurant Law Center

Subscribed and sworn to before me this 1th day of September, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska & Chk
RENEE J. GOSS draw .

My Comm. Exp. September 5, 2023

 

 

Notary Public Affiant 39986
Counsel for Petitioner Facebook, Inc.
Paul D. Clement

Kirkland & Ellis LLP

1301 Pennsylvania Avenue, NW
Washington, DC 20004

202-389-5000

paul.clement@kirkland.com

Counsel for Respondent Noah Duguid
Sergei Lemberg

Lemberg Law, LLC

43 Danbury Road

Wilton, CT 06897

203-653-2250

slemberg@lemberglaw.com

Counsel for Respondent United States
Jeffrey B. Wall

Acting Solicitor General

United States Department of Justice

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

202-514-2217
SupremeCtBriefs@USDOJ.gov
